  Office of Inspector General
      Audit Report


ARRA LESSONS LEARNED: FTA NEEDS TO
  IMPROVE ITS GRANT OVERSIGHT TO
    PREVENT IMPROPER PAYMENTS
        Federal Transit Administration

         Report Number: FI-2014-034
          Date Issued: April 2, 2014
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: ARRA Lessons Learned: FTA Needs                                          Date:    April 2, 2014
           To Improve Its Grant Oversight To Prevent
           Improper Payments
           Federal Transit Administration
           Report No. FI-2014-034

  From:    Louis C. King                                                                 Reply to
                                                                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
           Information Technology Audits

    To:    Federal Transit Administrator

           In February 2009, the Federal Transit Administration (FTA) received an allocation
           of $8.4 billion from the American Recovery and Reinvestment Act of 2009
           (ARRA) for economic stimulus and recovery grants. FTA and other Federal
           agencies reimburse grantees for project costs, and ARRA, along with the Improper
           Payments Information Act of 2002 (IPIA), requires agencies to hold grantees
           accountable for their expenditures. In its implementation of these statutes, the
           Office of Management and Budget (OMB) has directed agencies to increase their
           oversight of grantees.

           We initiated this audit to assess FTA’s oversight of ARRA expenditures.
           Specifically, our objectives were to assess whether (1) FTA’s oversight of ARRA
           grantees has prevented and detected grantees’ improper payments for project
           costs, and (2) FTA’s oversight of grantees’ use of their own workforces for
           preventive maintenance work was effective.

           As part of this audit, we selected a statistical sample of 627 invoices/line items
           totaling over $380 million 1 made to 16 transit grantees which allowed us to project
           the total amount and percentage of improper payments, if any, within the universe
           of FTA’s payments to its ARRA grantees.



           1
            This figure includes six Headquarters-level transactions totaling $(78,581) that are identified in the sample as “ZZ
           Error” and “ZZ Error-Other”
                                                                                                                      2


We reviewed documents that supported payments, and evaluated the sampled
payments to determine whether they were made in accordance with FTA’s
program guidance and Federal laws and regulations. This audit was not intended
to identify what payments are recoverable to the Federal Government. We
conducted this review in accordance with generally accepted Government auditing
standards (GAGAS). Exhibit A provides more details on our scope and
methodology.

RESULTS IN BRIEF

FTA’s oversight of its ARRA grantees did not prevent or detect approximately
$7.3 million in improper payments to 10 of the 16 grantees in our sample. 2
Approximately $5.9 million, or 80 percent, was paid for charges that grantees did
not sufficiently document. While a lack of documentation does not necessarily
mean a payment was invalid, it does raise questions about the payment’s eligibility
as well as the overall effectiveness of internal controls. For example, we identified
instances where grantees did not obtain proper certifications to document safety
and material content of passenger buses and vans. The remaining $1.5 million of
the $7.3 million, or 20 percent, was paid to grantees for ineligible services. Based
on our statistical sampling, we project that $280.8 million 3 or 5.1 percent of
ARRA payments to FTA grantees were improper. We also identified $24.9 million
of improper payments outside of our statistical sample that further substantiate
these weaknesses in FTA’s oversight. 4

FTA’s oversight also did not ensure that grantees justified the use of their own
labor forces, known as force account work, for preventive maintenance. 5 FTA’s
November 2008 Circular required grantees to develop plans for work performed
by their own labor on capital projects, and listed preventive maintenance as a
capital project. 6 These plans must be submitted to FTA for approval 7 and must
include, among other things, scope of work, cost reasonableness, and reasons why
a contractor does not have the expertise to do the work. However, of the

2
  It is important to recognize that improper payment estimates are not intended to be an estimate of fraud in Federal
agencies’ programs and activities. An improper payment is defined as any payment that should not have been made or
that was made in an incorrect amount (including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements. It includes any payment to an ineligible recipient, any payment
for an ineligible good or service, any duplicate payment, payment for a good or service not received (except for such
payments where authorized by law), and any payment that does not account for credit for applicable discounts. Office
of Management and Budget guidance also instructs agencies to report as improper payments any payments for which
insufficient or no documentation was found.
3
  This estimate has a precision of +/-4.7 million, or 0.1 percent of a universe total of $5.5 billion.
4
  We did not include these improper payments in calculating our statistical projections.
5
   Preventive maintenance includes the materials and labor required to preserve or extend the functionality and
serviceability of transit vehicles and assets, such as periodic oil changes and vehicle tune-ups.
6
  Capital projects, including construction of bus stops, installation of elevators and the purchase of buses, are usually
items that have a useful life of more than one year.
7
  FTA approval of force account plans is required when the total amount of force account work exceeds $10 million.
                                                                                                      3


transactions we reviewed, we found FTA reimbursed over $253.5 million for force
account work for preventive maintenance without complete plans or in some
instances without any plans. 8 For example, the New Jersey Transit Corporation
(NJT) received $136.2 million for force account work without submitting a plan.
Furthermore, FTA’s regional offices did not consistently apply the stated
requirements of approving force account plans or ensuring plans contained the
necessary elements. For example, one regional office provided its approval of a
force account plan, while another obtained a plan but neither approved or
disapproved it. When we discussed these matters with FTA officials, they noted
that the Circular’s requirement was an error and officially rescinded it in August
2012. By removing this control, FTA increases the risk that grantees will
inappropriately use FTA funds for their own labor forces.

We are making a series of recommendations to strengthen FTA’s oversight of
grantees to prevent and detect improper payments for current and future
Federal-aid projects and assist the Agency in recovering improper payments.

BACKGROUND

Since February 2009, FTA has awarded 1,072 ARRA grants to 642 grantees
totaling over $8.78 billion, including $443 million in flexible funding 9 from the
Federal Highway Administration. As of March 2011, FTA had expended nearly
$5.5 billion on projects ranging from construction of bus stop shelters to the
construction of an entire transit center in New York City.

To guard against improper use of federal grant funds, OMB issued
Circular A-123 10 which implemented IPIA and defined improper payments as:

• Payments to ineligible recipients;
• Duplicate payments;
• Payments in incorrect amounts;
• Payments for ineligible services, and services not received; and
• Payments with insufficient documentation.

Circular A-123 further defines an improper payment as “any payment that should
not have been made or that was made in an incorrect amount under statutory,


8
  We do not consider these amounts to be recoverable improper payments.
9
  Flexible funds may be used for either transit or highway projects.
10
   M-06-23, August 2006. Appendix C, “Requirements for Effective Measurement and Remediation of Improper
Payments”
                                                                                                                    4


contractual, administrative, or other legally applicable requirements.” Consistent
with this definition, we applied the following criteria:

• Insufficient supporting documentation: Payments for work that may have
  been eligible but lacked supporting documentation.

• Ineligible services: (1) Payments for services 11 that did not comply with FTA
  or other Federal administrative requirements 12 for eligibility at the time the
  payments were made. However, if the payments had met administrative
  requirements, these services would have been reimbursable; (2) ARRA funds
  used to pay for activities that should have been paid for with other funds.

FTA’s Circulars outline FTA’s grant program requirements, internal controls,
oversight, and project management procedures. The Circulars include FTA’s
requirements for force account work—grantees’ use of their own labor forces to
carry out capital projects, indicating that a grantee may use its own labor force
when:

• It will save money by doing so;
• It has exclusive expertise;
• It will improve safety and efficiency of operations; or
• A labor union agreement exists.

Grantees use their own labor forces for work such as project design, construction,
support services, and preventive maintenance on buses, rail cars and locomotives,
and other transit assets. FTA requires grantees to obtain FTA approval of their
plans to use force account work with an estimated cost of more than $10,000,000.
A force account plan includes a justification for the use of the grantee’s own work
force based on one of the four requirements listed above, and must also include:

• A scope of work;
• Clauses from labor union agreements and an analysis relating the agreements
  to the work;
• The basis for the determination that no contractor has the expertise to do the
  work; and
• A certification that costs are fair and reasonable.
11
   A contractor or the grantee may provide these services, including bus manufacturing, railway construction and repair
and maintenance of transit assets.
12
   Examples of administrative requirements include FTA approvals of in-house labor usage or certain vehicle
purchases.
                                                                                                                         5


FTA Headquarters is responsible for setting grant policy, while the day to day
technical assistance is performed within its ten regional and five metropolitan
offices. Relying heavily on contractors, FTA conducts oversight with tools such as
triennial reviews, procurement system reviews, financial management reviews,
and grantee oversight assessments. In August 2012, however, we reported 13 that
FTA does not provide its regions or contractors with adequate guidance or
oversight to ensure they consistently identify and track deficiencies found during
key reviews and audits of FTA grantees.

FTA OVERSIGHT DID NOT FULLY PREVENT AND DETECT
IMPROPER PAYMENTS

FTA’s oversight did not prevent or detect approximately $7.3 million in improper
payments to 10 of the 16 transit agencies included in our review. Approximately
$5.9 million (80 percent) was made for services with insufficient documentation.
Another $1.5 million (20 percent) in improper payments was paid to grantees for
ineligible services. We project that $280.8 million or 5.1 percent of ARRA
payments to FTA grantees were improper (see table 1). We also identified
numerous improper payments outside of our statistical sample for work under the
same grant, contract, or force account plan as payments in our sample.

Table 1. Improper Payments in Statistical Sample
Category                                                  Improper Payments                Projection of Improper
                                                            Inside of Sample                  Payments Inside of
                                                                                                               14
                                                                                            Sample to Universe
Insufficient Documentation*                                           $5,879,718                        $251,569,430
Ineligible Services                                                     1,463,387                          29,260,873
Total*                                                                $7,343,105                        $280,830,303
*These amounts are the sum of the absolute value of negative and positive transactions.
Source: OIG analysis

FTA Reimbursed Grantees $5.9 Million for Charges That Were
Improper Due to Insufficient Documentation

FTA reimbursed grantees for charges that lacked sufficient documentation. This is
occurring because FTA does not require reviews of invoices or their support
before it reimburses grantees. FTA’s oversight contractors examine invoice
documentation during their reviews which may occur a year or more after

13
   Improvements Needed in FTA’s Grant Oversight Program, OIG Report No. MH-2012-168, August 2, 2012. OIG
reports are available on our website: www.oig.dot.gov.
14
   Our $280.8 million projection has a precision of +/- $4.7 million or 0.1 percent of the universe total of $5.5 billion at
the 90 percent confidence level.
                                                                                                                     6


payments were made to grantees. OMB’s definitions of improper payments
include payments without sufficient documentation. Furthermore, Federal internal
control standards require transactions to be clearly documented and that
documentation should be readily available. 15 While a lack of documentation does
not necessarily mean a payment was invalid, it is an internal control weakness
because it does not allow management or auditors to determine if the transaction
was proper. Of the $7.3 million in improper payments we identified in our sample,
about $5.9 million, or 80 percent, were for insufficient documentation. For
example:

• The Massachusetts Bay Transportation Authority (MBTA) could not provide
  sufficient documentation for payments totaling $2.8 million. Before purchasing
  motor vehicles with FTA grant funds, MBTA is required to have certain
  certifications on file. However, MBTA’s files did not contain the Federal
  Motor Vehicle Safety Standards (FMVSS) and Buy America certifications
  required before purchasing 54 vans built to serve persons with disabilities and
  elderly riders. The FMVSS certification assures FTA that the vehicles
  complied with Federal safety standards at the time of manufacture. The Buy
  America certification indicates that the contractor complied with ARRA’s
  requirement that transportation infrastructure projects incorporate American-
  made products and materials, such as steel and iron.

FTA reimbursed other payments that also did not have sufficient documentation.
Specifically, these payments were missing:

• Support for the use of another grantee’s contract to purchase transit vehicles
  (known as piggybacking); 16
• Documentation on contract rates;
• Documentation on why billed rates did not match contract rates; and
• Inspection reports or other documentation to support a contractor’s quality of
  work performed.

Because it does not review grantees’ documentation prior to payment transmittal,
FTA cannot be sure that it reimburses grantees for eligible expenses.




15
  Standards for Internal Control in the Federal Government, GAO/AIMD—00-21.3.1, November 1999.
16
  Piggybacking refers to a grantee’s use of another entity’s rights to purchase specific deliverables, usually buses or
vans, under the other entity’s contract terms, rather than initiating its own procurement procedures. The grantee must
determine that the price remains fair and reasonable and the contract complies with Federal requirements.
                                                                               7


Grantees’ Payments for Ineligible Services Totaled Nearly $1.5 Million

Grantees made payments for ineligible services totaling nearly $1.5 million.
Among other reasons, these payments were largely related to the grantees’ use of
force accounts—for work other than preventive maintenance—without proper
justification and the required FTA approval. When a grantee relies on its own
workforce for projects, it is possible that the workforce lacks the necessary
expertise or even exceeds contractor costs for comparable work. FTA review and
approval of force account plans serves to ensure that Government funds are used
appropriately. For example:

• The New York Metropolitan Transportation Authority (MTA) did not provide
  to FTA for approval the required justification of ARRA-related expenditures.
  MTA received $19.2 million—$693,204 within our sample—for ARRA work
  that its own employees performed without submitting proper plans or
  justifications to FTA. The work included support services such as “flagging” at
  construction sites and bus operations to move transit passengers around track
  work areas. An MTA official stated that they believed that force account plans
  were not required for support services. FTA officials agreed that these
  activities required force account plans. They also stated that regional offices
  and grantees need clearer guidance in this area.

We also identified instances where grantees’ failure to follow proper procedures
affected the eligibility of an expense. For example:

• NJT requested reimbursement before it needed the funds. FTA’s Circular
  instructs grantees to request only those funds that they will expend within
  3 business days or the funds are considered excess and must be returned with
  interest. FTA paid NJT $344,619 on December 20, 2010, but NJT held the
  funds and did not pay its contractor until 11 business days later. NJT stated
  that the time lapse was an oversight.

Numerous Improper Payments Were Also Made Outside of Our
Statistical Sample

We also identified improper payments outside of our statistical sample totaling
approximately $24.9 million—for work acquired under the same grant, contract,
or force account plan as payments in our sample (see table 2).
                                                                                 8


Table 2. Improper Payments Outside of Statistical Sample
Category                                      Improper Payments Outside of Sample
Insufficient Documentation                                               2,602,800
Ineligible Services                                                     22,250,235
Total                                                                  $24,853,035
Source: OIG analysis

We did not include these payments in calculating our statistical projections, but
these improper payments further illustrate the oversight weaknesses we identified.
For example:

• $19.3 million in payments for force account work with missing or
  incomplete force account plans. MTA did not submit force account plans for
  $18.5 million in support services for FTA’s advance approval. Another agency,
  Metropolitan Rail (METRA), the commuter rail system in the Chicago area,
  lacked the necessary justification for its force account plan totaling
  $779,800.

• $2.6 million in payments that lack required documentation. MBTA could
  not provide FMVSS and Buy America certifications for its purchase of
  54 transit vans in addition to the 54 vans in our sample.

• $3.0 million in payments for which the grantee did not obtain an FTA
  waiver to purchase additional buses. While FTA guidance caps the number
  of spare buses allowed in an active fleet at 20 percent, CMTA exceeded this
  ratio by purchasing 7 buses beyond the limit. Furthermore, CMTA did not
  have a plan to dispose of the buses that were being replaced or a waiver to
  exceed the 20 percent.

FTA’S OVERSIGHT DID NOT ENSURE THAT GRANTEES
PROPERLY JUSTIFIED USE OF THEIR OWN LABOR FORCES
FOR PREVENTIVE MAINTENANCE

FTA did not properly oversee grantees’ use of their own labor forces for
preventative maintenance. The Agency made reimbursements totaling over
$253.5 million for this force account work that did not comply with its Circular in
effect since November 2008. This occurred because FTA’s regions did not
consistently apply guidance when overseeing grantees for these activities. FTA
stated that it had erroneously developed the requirement on force account plans for
preventive maintenance for its November 2008 Circular.
                                                                                                                      9


The November 2008 version of FTA’s Circular required grantees to develop force
account plans for work on capital projects and listed preventive maintenance as a
capital project. In August 2011, FTA instructed its reviewers to cease testing on
the requirement for preventive maintenance force account plans. However, during
the time that the 2008 Circular was in effect, the Agency reimbursed grantees
despite missing, unapproved, or inadequate force account plans. For example:

• NJT did not provide a force account plan to Region 2 for preventive
  maintenance force account work totaling $136.2 million. NJT informed us that
  force account plan requirements were not applicable to preventive maintenance
  work but to “capital programs.”

• FTA reimbursed the Chicago Transit Authority (CTA) $75.2 million for
  preventive maintenance force account work performed between January and
  April 2009. CTA submitted its force account plan to FTA’s Region 5 in
  August 2009, and Region 5 approved it in October 2009—several months after
  the work was performed and FTA had reimbursed CTA. FTA stated that the
  onus was on the grantee to make sure all Federal requirements were met prior
  to reimbursements.

• In April 2010, Region 9 approved the Municipal Transportation Agency/City
  and County of San Francisco’s (MUNI) preventive maintenance force account
  plan, several months after MUNI was paid $10 million of ARRA funds for
  preventive maintenance force account work. In contrast, just 2 months earlier,
  Region 10 had informed Tri-County Metropolitan Transportation District of
  Oregon (Tri-Met) that it would hold back reimbursements for preventive
  maintenance force account work unless Tri-Met submitted a plan, asserting
  that it had just learned of FTA’s requirement. Tri-Met submitted the plan, but
  FTA could not provide evidence that Region 10 reviewed or approved it.

In its August 2012 revision of the Circular, the Agency no longer applied force
account requirements to preventive maintenance. FTA further informed us that,
while preventive maintenance is classified as a capital expense, the Agency
believes that it is actually more like an operating expense 17 than a capital expense,
and therefore force account requirements do not apply. By removing this internal
control requirement, FTA has increased the risk that grantees will inappropriately
use FTA grants for their own labor forces. See exhibit C for details on payments
made on preventive maintenance force account work.



17
   According to FTA C 9030.1D, “[o]perating expenses are those costs necessary to operate, maintain, and manage a
public transportation system. Operating expenses usually include such costs as driver salaries, fuel, and items having a
useful life of less than one year.”
                                                                                 10


CONCLUSION

Given the significant investments the Federal Government has made through
ARRA, it is critical that agencies take every possible step, including preventive
actions, to increase transparency and accountability with their use of the funds.
While ARRA is drawing to a close, going forward, FTA can apply lessons learned
to strengthen controls over ongoing projects funded by ARRA grants and ensure
that oversight weaknesses do not place any future funding at risk for fraud and
abuse.

RECOMMENDATIONS

We recommend that FTA:

1. Determine if improper payments identified in this report are recoverable, and
   develop and implement a plan to maximize the return of these payments.

2. Provide training to regional office personnel on topics specific to force account
   plans that addresses and clarifies FTA’s requirements for reimbursement.

3. Modify existing FTA Circulars, instructions to oversight contractors, and
   training for grantees to reinforce program requirements, including those
   addressing such certifications as FMVSS and Buy America.

4. Implement preventive measures to guard against improper payments, such as
   periodically requesting payment documentation (i.e. force account plans and
   current contracts), prior to reimbursing grantees for expenditures.

5. Implement controls governing payments to grantees for                 preventive
   maintenance force account activities.
                                                                                 11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a copy of our draft report to the Federal Transit Administrator on
September 3, 2013. We received FTA’s letter of comments on March 20, 2014,
which is reprinted as the appendix to this report. While FTA generally disagrees
with our findings, it concurred or partially concurred with our recommendations.

FTA concurred in part with our first recommendation—to develop and implement
a plan to recover improper payments that may be or are determined to be
recoverable. According to FTA, however, it has reviewed the payments we
identified as improper and determined that these payments were not improper and
therefore not recoverable. The majority of the improper payments we identified
were due to insufficient documentation, and OIG and FTA disagree on what
constitutes “insufficient documentation.” Our definition is consistent with
Standards for Internal Control in the Federal Government, “which states all
transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination.” Further, OMB states
that insufficient documentation of payment must be reported as an improper
payment. While FTA concluded that “the 80 percent of the OIG’s monetary
findings linked to documentation could subsequently be adequately documented
by grantees,” the documentation was not always readily available to us when
requested. In one case, we received documentation from FTA over a year after we
requested it. While this recommendation is considered resolved, it will remain
open, pending our verification of FTA’s review.

FTA concurred with recommendation 2 and partially concurred with
recommendations 3, 4, and 5, and provided adequate proposed actions and target
dates for implementing our recommendations. The recommendations are
considered resolved but open, pending our review of FTA’s completed actions.

Despite its general concurrence with our recommendations, FTA took issue with a
number of our findings. We disagree. FTA noted that recent reviews of its Capital
Investment Grants and Formula Grants programs, which were performed by a
consultant under contract to DOT, found no improper payments. However, our
audit focused solely on ARRA expenditures in all of FTA’s programs—not on all
expenditures within certain programs—and met all GAGAS requirements. In
contrast, the consultant’s reviews were not required to have the rigor or level of
assurance needed to meet Government auditing standards. The consultant that
conducted the reviews also stated that its work was not an audit. FTA’s letter also
refers to a master agreement it signs with each transit authority it funds as one of
its oversight and management practices. However, this master agreement supports
                                                                                                             12


our position regarding the importance of documentation in that it states that “costs
submitted without sufficient documentation are ineligible.”

Similarly, FTA’s letter states that the Agency does not require force account plans
for preventive maintenance. However, the November 2008 version of FTA’s
Circular—the criteria applicable to the transactions we reviewed—required such
plans for work on capital projects, and listed preventive maintenance in this
category. In June 2011, we notified FTA of this fact, and two months later, FTA
issued a technical advisory to instruct oversight contractors to stop testing for
preventive maintenance force account plans. FTA issued a revised circular in
August 2012, which officially rescinded the requirement for these account plans.

In general, FTA’s response raises concerns about its understanding of OMB
guidance and the application of internal controls. FTA consistently provided the
information we requested in an untimely manner and often after the conclusion of
our testing or notification of potential findings, prompting questions about the
data’s reliability. Our concern on this point is increased when we note that in
2013, KPMG LLP, the independent auditor of DOT’s financial statements,
reported a significant deficiency in DOT’s internal controls pertaining to FTA’s
audit evidence. 18 Specifically, KPMG stated that, “On more than one occasion,
FTA did not provide us with timely, accurate, reliable, or valid responses to
auditor requests for information and inquiries.” These conditions increase the risk
that audits will be compromised.

ACTIONS REQUIRED

FTA’s planned actions for all five recommendations are responsive, and its target
action dates are appropriate. All five recommendations will remain open pending
receipt of documentary evidence that appropriate corrective actions are complete.
If you have any questions concerning this report, please call me at (202) 366-1407,
or George Banks, Program Director, at (410) 962-1729.

                                                       #

cc: DOT Audit Liaison, M-1
    FTA Audit Liaison, TBP-30




18
  Quality Control Review of the Department of Transportation’s Audited Financial Statements for Fiscal Years 2013
and 2012, OIG Report No. QC-2014-015, December 16, 2013. OIG reports are available on our website:
www.oig.dot.gov.
                                                                                13


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from April 2011 through September 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. Our two objectives were to assess whether FTA’s oversight: (1) has
prevented and detected ARRA improper payments and (2) was effective for
grantees’ use of their own work forces for preventive maintenance activities. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions.

To assess the effectiveness of FTA’s oversight of ARRA grantees to prevent and
detect improper payments, we obtained, reviewed, and analyzed documentation
demonstrating FTA (Headquarters and regional) program management policies
and procedures. We also interviewed FTA Headquarters officials from the Office
of Budget and Policy; Office of Program Management; Office of the Chief
Counsel; officials from seven FTA Regions; and grantee representatives.

To verify the accuracy of reimbursement requests, we reviewed documentation to
ensure payments complied with FTA program guidance and applicable laws and
regulations. Using a statistical sample, we tested FTA ARRA payments made
between February 17, 2009 and March 31, 2011. OIG statisticians selected a
5-stage probability proportional to size with replacement sample from a universe
of 10,287 disbursements, with net disbursements totaling $5,491,403,339. “With
replacement” means that each sample selection was drawn from the entire
universe. Any State, vendor or disbursement already selected was returned to the
eligibility pool and had another chance of selection. We conducted sampling as
follows:

• Stage 1: We selected a sample of 11 out of 55 19 States, including 10 unique
  States since 1 State was selected twice. In Stage 2, statisticians drew two
  separate samples for the State selected twice. This procedure was used
  whenever a sample item was selected more than once.

• Stage 2: We selected 2 grantees from each of the 11 States, resulting in a
  sample size of 22 grantees (16 unique grantees since four grantees were
  selected twice, plus 2 sets of Headquarters transactions coded as “ZZ Error”
  and “ZZ Error-Other”).



19
     This figure includes States, U.S. Territories, and ZZ error payments.


Exhibit A. Scope and Methodology
                                                                               14


• Stage 3: We selected 5 disbursements from each of the 22 grantees. For
  grantees with less than 5 disbursements in the universe, all disbursements were
  selected, for a total sample size of 102 disbursements (88 unique), including 96
  disbursements to 16 grantees (see Exhibit B), and 6 ZZ error transactions.

• Stage 4: Each grantee provided a listing of invoices/line items included in each
  of the applicable disbursements selected in Stage 3. Statisticians then selected
  a sample of 10 line items from each disbursement. When a disbursement
  included less than 10 line items, all were selected.

•   Stage 5: We developed a subsample of 42 line items from one grantee’s Stage
    4 line items.

The total sample size was 748 line items (670 positive and 78 negative line items)
with an absolute value of $475 million. Because line items were selected more
than once, 627 unique items were reviewed, with an absolute amount of
$381 million (563 positive ($370 million) and 64 negative line items
($11 million).

To supplement our payment testing procedures, an OIG engineer reviewed
documentation for ten sample payment construction items to determine whether
the payments were commensurate with the value of the work accomplished, and
that the work met the quality standards established under the contract.

At the completion of payment testing, OIG statisticians projected our findings of
54 (45 unique) improper payments in the amount of $7.3 million that were found
in our sample of 748 (627 unique) line items to estimate the total amount of
improper payments made in FTA ARRA programs during the period reviewed.
Statisticians estimated that $280.8 million or 5.1 percent of FTA ARRA payments
to grantees were improper. Our estimate has a precision of +/-$4.7 million at the
90 percent confidence level.

To address our second audit objective pertaining to oversight of preventive
maintenance activities, we reviewed force account plans for compliance with
justification and FTA approval requirements. We also interviewed FTA Regional
officials as to their roles in ensuring compliance.




Exhibit A. Scope and Methodology
                                                                                                        15



EXHIBIT B. IMPROPER PAYMENTS IDENTIFIED INSIDE AND
OUTSIDE OF SAMPLE
Table A: Findings Identified Inside Sample, by Granteea
Grant Type                   Samples                       Ineligible   Insufficient                Total
                                 With                       Services Documentation
                                     b
                            Findings
Cape Ann Transportation Authority, MA (CATA)
Formula—Urbanized                     3                              -          $676,765        $676,765
and Urbanized/Flex
Massachusetts Bay Transportation Authority, MA (MBTA)
Formula—Urbanized                     1                              -         2,785,320       2,785,320
Regional Transportation Authority, IL (METRA)
Formula—Urbanized                     5                      $38,325                     -        38,325
Capital Metropolitan Transportation Authority, TX (CMTA)
Formula—Urbanized                     1                      387,239                     -       387,239
Oregon Department of Transportation, OR (ODOT)
Formula—Non-                          1                              -              9,594           9,594
Urbanized
New Jersey Transit Corporation, NJ (NJT)
Formula—Urbanized                     1                      344,619                     -       344,619
Metropolitan Transportation Authority, NY (MTA)
Formula—Urbanized                     7                      693,204                     -       693,204
City of Phoenix, AZ
Formula—Urbanized                     1                              -             47,640         47,640
Tri-County Metropolitan Transportation District, OR (Tri-Met)
Formula—Urbanized                     8                              -         2,154,310       2,154,310
and Urbanized/Flex
Southern California Regional Rail Authority, CA (SCRRA)
                                                                                         c               c
Formula—Urbanized                    17                              -          206,089         206,089
        d                                                                                                c
Total                                45                   $1,463,387          $5,879,718 $7,343,105
a
  We did not identify improper payments for Chicago Transit Authority, IL (CTA); Port Authority of Allegheny
  County, PA (PAAC); San Francisco Municipal Transportation Agency, CA (MUNI); County of Lebanon
  Transit Authority, PA (COLT); and Dallas Area Rapid Transit, TX (DART), Harris County Community &
  Economic Development Department (TX), or ZZ Error/Other.
b
  Number of samples excludes line items that were selected multiple times in the sample.
c
  All figures in this table are presented in absolute value.
d
  Numbers may not add due to rounding.




Exhibit B. Improper Payment s Identified Inside and Outside of
Sample
                                                                         16



Table B: Findings Identified Outside Sample, by Grantee
Grantee                   Ineligible      Insufficient           Total
                           Services    Documentation
MBTA                               -     2,602,800.00     2,602,800.00
METRA                    779,799.85                  -     779,799.85
CMTA                   2,985,960.00                  -    2,985,960.00
MTA                   18,484,474.65                  -   18,484,474.65
Total                 22,250,234.50      2,602,800.00    24,853,034.50




Exhibit B. Improper Payment s Identified Inside and Outside of
Sample
                                                                                               17



EXHIBIT C. PAYMENTS MADE ON PREVENTIVE
MAINTENANCE FORCE ACCOUNT WORK
                                                                    a
Grantee                 Inside of Sample       Outside of Sample                       Total
CTA                        50,000,000.00              25,200,000.00         75,200,000.00
NJT                             72,413.09           136,111,586.91        136,184,000.00
MUNI                       13,617,261.00               6,493,353.00         20,110,614.00
TRIMET                       4,300,000.00             17,694,259.26         21,994,259.26
Total                      67,989,674.09            185,499,199.17        253,488,873.26
a
 Payments outside of our statistical sample were for preventive maintenance force
account work performed under the same grant or force account plan as payments in our
sample.




Exhibit C. Payment s Made on Preventi ve Maintenance Force Account
Work
                                                              18



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

George Banks                            Program Director

Ingrid Harris                           Project Manager

Marguerite Nealon                       Senior Auditor

Allison La Vay                          Senior Analyst

T. Wayne Summers                        Auditor

Cordelia Bostic                         Auditor

Michael Dzandza                         Auditor

Rosa Scalice                            Auditor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Aron Wedekind                           Engineer

Susan Neill                             Writer-Editor

Amy Berks                               Senior Counsel




Exhibit D. Major Contributors To Thi s Report
                                                                                                                 19



  APPENDIX. AGENCY COMMENTS

                 Memorandum
              U.S. Department
              of Transportation
              Federal Transit
              Administration

Subject        INFORMATION: Management Response to Office of                             Date:    March 20, 2014
:
               Inspector General Draft Report on ARRA Lessons
               Learned
  From:        Matthew J. Welbes                                                      Reply to    Lauren Tuzikow
                                                                                      Attn. of:
               FTA Executive Director                                                             (202) 366-2059
        To:    Louis C. King
               Assistant Inspector General for Financial and Information Technology Audits

          FTA OBLIGATED $8.7 BILLION WITHOUT ANY IDENTIFIED IMPROPER
                                   PAYMENTS

       The Federal Transit Administration (FTA) successfully obligated more than $8.7
       billion in American Recovery & Reinvestment Act (ARRA) funds in full compliance
       with applicable law and regulation without any improper payments. FTA adhered to
       stringent monitoring and oversight standards in distributing Recovery Act funds to
       public transit agencies and provided exceptional stewardship of taxpayer dollars.

       FTA reviewed every specific finding in the OIG draft report and determined that none
       of the payments were improper. 1 All of the payments were made to eligible recipients,
       for eligible services, and in the correct amount. Specifically, FTA concluded that the
       80 percent of the OIG’s monetary findings linked to documentation could
       subsequently be adequately documented by grantees, and that these payments were in
       full compliance with applicable OMB guidance. Further the remaining 20 percent of
       OIG’s findings relating to the eligibility of grant activities were also fully appropriate
       and in accord with grant requirements, FTA oversight requirements, and OMB
       guidance relating to payments.

       FTA’s findings are supported by independent third-party reviews, conducted by
       Deloitte Consulting, of FTA’s payment practices to grant recipients. Deloitte found
       that FTA had zero improper payments in its Capital Investment Grants program in
       2010 and 2012, and zero improper payments in its Formula Grants program in 2011.

  1
      The FTA strongly disputes the OIG report’s definition of “improper payments,” which is based on an overly-broad
       and erroneous interpretation of the definition contained in OMB Circular A-123. However, even under the OIG’s
       incorrect definition, all of FTA’s payments were proper.


  Appendix. Agency Comments
                                                                                        20


 These reviews covered roughly the same time period as the OIG report and used a
 methodology fully compliant with OMB guidance and carefully reviewed by the OIG.

 In light of the fact that FTA’s detailed review definitively established that each of the
 examples cited in the OIG report were fully appropriate and in accord with grant
 requirements, we respectfully request that the OIG adjust its extrapolated values cited
 in the draft report to ensure that they are in accord with all of the material facts.

 FTA Oversight Prevents and Detects Improper Payments

 With respect to oversight, ARRA set a new standard for expectations and practice.
 FTA’s oversight of ARRA funds adhered to the most robust and rigorous oversight
 standards in the agency’s history. FTA recognized at the outset that there were
 inherent risks in the ARRA program for meeting the accelerated Congressional
 deadlines imposed for obligating and distributing ARRA funds. Recognizing these
 challenges, FTA enhanced its customary oversight practices—which include triennial
 reviews, procurement reviews, and project management risk oversight—with
 additional layers of oversight, including:

         •   an overall program risk assessment;
         •   an ARRA-specific oversight plan;
         •   a detailed risk assessment for grantees and projects, with projects and
             grantees posting additional risks in key oversight areas receiving
             additional monitoring, reviews, or technical assistance;
         •   workshops for ARRA grantees on complying with procurement system
             and financial management requirements;
         •   additional procurement system and financial management oversight
             reviews were conducted to ensure compliance; and,
         •   triennial and state management reviews were expanded to cover additional
             questions related to compliance.

 FTA used these enhanced measures to supplement its existing management and
 compliance practices that enable the agency to monitor grantee performance on a
 regular basis and review extensive documentation. For example, triennial reviews,
 conducted once every three years, examine how recipients of Urbanized Area Formula
 Program funds meet statutory and administrative requirements, among other things. In
 addition, FTA signs a Master Grant Agreement ("Master Agreement") with each
 transit agency it funds. The Master Agreement describes standard terms and conditions
 governing the administration of any project supported with Federal assistance. The
 Master Agreement includes eight eligibility criteria that grantees must meet—
 including a provision that costs submitted without sufficient documentation are
 ineligible. In assessing whether a payment is documented sufficiently, FTA considers
 whether the documentation is reasonable and persuasive. FTA also performs State
 management reviews and grantees have single annual audits. These internal controls




Appendix. Agency Comments
                                                                                       21


 have long been effective and accepted by the Office of the Secretary of Transportation,
 as well as OMB.

 FTA Made No Payments for Ineligible Services to ARRA Grantees
 After comprehensive and detailed review of the OIG findings, and the basis behind
 those findings, FTA strongly disagrees with the OIG assertion that it made payments
 for ineligible services. FTA applies comprehensive criteria, fully consistent with
 OMB guidance, to determine what types of expenses are eligible and whether
 improper payments have occurred. These are included among the eight criteria in the
 Master Agreement. A cost is deemed ineligible if it is outside the scope of a project,
 outside the period of performance (e.g., expenses pre-date the agreed upon start date),
 are unreasonable, or legally prohibited, among other criteria. FTA reviewed the four
 grantees that the OIG cites as incurring ineligible services and none of them met
 established criteria for ineligibility.

 For example, the OIG cites the Capital Metropolitan Transportation Authority
 (CMTA) of Austin, TX, for ineligible services. Specifically, the OIG determined that
 $387,279 was ineligible for a planned bus procurement because the agency’s grant
 application referred to a bus spare ratio of 20.3 percent, and the OIG alleges that this
 violates FTA’s recommended spare ratio level of 20 percent. (A spare ratio refers to
 the percentage of total vehicles that are not needed in peak service out of all the
 vehicles used in peak service.) This OIG conclusion is wrong as well as inappropriate.
 FTA approved the spare ratio when FTA approved the grant, in part because FTA
 determined that the miniscule differential in the spare-ratio allowance was immaterial
 to the value of the procurement.

 Additionally the OIG stated that the CMTA did not have a plan in place to dispose of
 its outdated buses before purchasing replacement buses. However, FTA does not
 require grantees to have a formal plan for immediate disposition of buses that have
 exceeded their useful life upon receipt of replacement vehicles. FTA informed the OIG
 in April 2012, that it had determined that the costs were eligible in accordance with the
 terms of the Master Agreement. Importantly, FTA would not, in any case, have
 refused payment for these buses, as they were payments to an eligible recipient, for an
 eligible service, and in the correct amount.

 FTA Ensures that Documentation Is Adequate and Sufficient to Support Grant
 Funding

 FTA verified, in response to the OIG draft report findings, that sufficient
 documentation was available to support the payments made to the five grantees
 mentioned in the report that constitute 80 percent of the OIG draft report monetary
 findings and that the payments cited were not improper.

 FTA’s business practices are fully consistent with OMB guidance for determining
 sufficient documentation. FTA was able to obtain from the grantees and review
 documentation, which was sufficient for approval of funds in all cases. As part of its



Appendix. Agency Comments
                                                                                       22


 normal business practice, FTA reviews multiple forms of documentation as part of the
 triennial review and in accordance with the terms of the Master Agreement signed
 with each grantee, as noted earlier. These reviews enable FTA to determine that the
 payments are for an eligible service, to an eligible recipient, and in the proper amount.
 In addition to matters of the immediate availability of documentation, the OIG also
 cited payments where minor administrative or clerical issues arose as improper
 payments, even though these instances meet neither the statutory definition nor the
 OMB definition of an improper payment. For example, the OIG cites that $344,619 in
 ARRA funds to the New Jersey Transit Corporation were ineligible because the
 agency disbursed the funds approximately one week after the three-day window
 recommended in FTA’s Grant Management Circular. FTA reported to the OIG in
 June 2012 that these costs were eligible, as FTA’s Common Rule only requires that
 recipients minimize the time elapsing between the transfer of funds from the Treasury
 and the disbursement of funds. This was a payment to an eligible recipient, for an
 eligible service, and in the correct amount. FTA also disagrees with the OIG’s finding
 that project costs should be deemed ineligible if the grantee does not have a work plan
 associated with “force accounts,” which refers to capital project work directly
 performed by an FTA-funded recipient, such as a State department of transportation or
 a transit agency. (In other words, it is construction undertaken directly by the funded
 entity’s workforce, rather than by a contractor.)

 While grantees are required to have force account plans for capital projects, FTA
 would not necessarily declare costs ineligible for reimbursement solely on this basis.
 For example, FTA concurs with the OIG’s finding that the New York Metropolitan
 Transportation Authority (MTA) should have submitted a force account work plan for
 services provided by a third-party contractor at construction sites, and did not do so at
 the time. However, FTA does not agree with the OIG report’s conclusion based on this
 finding — namely, that $693,204 in sampled payments were made improperly. The
 payment was still for an eligible service, to an eligible recipient, and in the correct
 amount.

 The OIG’s conclusion that this was an improper payment necessarily implies that this
 is a “payment that should not have been made,” and thus that FTA should have
 withheld the funds. However, withholding funds solely on the basis of a lack of force
 account plans inflicts undue financial harm on the grantee that is disproportionate to
 the seriousness of the omission. The Department of Transportation’s Financial
 Assistance Guidance Manual states that “enforcement measures should match the
 seriousness of the problem. The designated… official should apply sound judgment in
 determining what enforcement measures are appropriate for a situation.” Moreover,
 the DOT and the OMB accept FTA’s standard procedures in such matters, which
 entail working with the grantee through oversight mechanisms to ensure that they
 submit required force account plans in the future. FTA issues corrective action plans
 to grantees to achieve the desired outcome, whether it is to submit a force account plan
 or other remedy.




Appendix. Agency Comments
                                                                                      23


 FTA Oversight of Eligible Preventive Maintenance Work is Accurate and
 Appropriate
 FTA strongly disagrees with the OIG’s finding that FTA did not properly oversee
 grantees’ use of their own labor forces, particularly with respect to preventive
 maintenance work performed on transit systems. The OIG states that “FTA has
 increased the risk that grantees will inappropriately use FTA grants for their own labor
 forces.” The OIG’s finding reflects a misunderstanding of eligible expenses under
 FTA’s grant programs.

 Force accounts are required for capital projects, addressing supporting labor costs for
 such capital projects. FTA does not require force accounts for preventive maintenance
 work because this kind of work constitutes an operating expense. Under Generally
 Accepted Accounting Principles (GAAP) and for purposes of reporting data to FTA’s
 National Transit Database, grantees report preventive maintenance as an operating
 expense. Preventive maintenance is an eligible expense under many of FTA’s grant
 programs and we fully expect that many grantees will rely on their own staff for these
 activities. It is important to emphasize that the use of labor in these cases is at the
 discretion of the transit agencies; it is an allowable use of their FTA formula funds.

 Conclusion
 The FTA successfully obligated more than $8.7 billion in ARRA funds to help
 revitalize public transportation around the nation and sustain over 10,000 jobs during
 the worst economic downturn since the Great Depression. FTA carried out this
 responsibility with an unprecedented level of oversight, due diligence, internal
 controls, and fiscal stewardship, resulting in no incidents of improper payments on any
 major grants in recent years.

 We disagree with the OIG report’s characterization that millions of ARRA dollars
 were jeopardized by FTA’s grantee oversight. To the contrary, thanks to FTA and the
 efforts of its grantees, FTA was able to provide reasonable assurance that funds
 distributed relating to ARRA went to eligible recipients, for eligible services, and in
 the correct amount. These projects helped the nation tackle essential and long overdue
 transportation infrastructure work that has significantly improved access to jobs and
 opportunities for millions of Americans. Finally, the OIG report’s characterization and
 extrapolation that millions were at risk should be adjusted, or removed completely
 from the report, as they present an inaccurate portrayal of actual circumstance,
 inasmuch as subsequent review determined that each of the cited findings were
 justified and not improper.

 Recommendations and Responses
 Recommendation 1: Determine which improper payments identified in this report are
 recoverable and develop and implement a plan to maximize the return on these
 investments.
 Response: Concur in part. FTA has reviewed each and every payment identified by
 the OIG in this report. None of the identified payments were improper; none of the
 identified payments are recoverable. FTA considers this recommendation completed.



Appendix. Agency Comments
                                                                                        24



 Recommendation 2: Provide training to regional office personnel on topics specific to
 force account plans that address and clarifies FTA’s requirements for reimbursement.
 Response: Concur. FTA will send a refresher of FTA’s force account plans and
 requirements to its regional staff by May 1, 2014.

 Recommendation 3: Modify existing FTA Circulars, instructions to oversight
 contractors, and training for grantees to reinforce program requirements, including
 those addressing such certifications as Federal Motor Vehicle Safety Standards and
 Buy America.
 Response: Concur in part. FTA engages in a process of continual review and
 improvement of its oversight program. FTA updated its Grants Management Circular
 in August 2012, and FTA has just completed its annual review of instructions to
 oversight contractors in these topic areas in February 2014. Based on these updates,
 FTA considers this recommendation completed.

 Recommendation 4: Implement preventive measures to prevent improper payments,
 such as periodically requesting payment documentation (i.e. force account plans and
 current contracts), prior to reimbursing grantees for expenditures.
 Response: Concur in part. As a matter of standard practice, when FTA has concerns
 about a grantee, FTA may, at its discretion, place the grantee on “draw-down
 restriction” – which means the grantee’s requests for payment are subject to further
 FTA review before payment is made. FTA will develop enhanced procedures for
 identifying high-risk grantees, and implement procedures for reviewing documentation
 for payments from these grantees by November 30, 2014.

 Recommendation 5: Implement controls governing payments to grantees for
 preventive maintenance force account activities.
 Response: Concur in part. FTA does not require a force account plan for preventive
 maintenance activities. However, FTA has procedures to check the eligibility of
 preventive maintenance activities in the grant at the time the grant is awarded. FTA
 will remind regional staff of these procedures by May 1, 2014.

 We appreciate this opportunity to offer additional perspective on the OIG draft report.
 Please contact Lauren Tuzikow at (202) 366-2059 with any questions or requests for
 additional assistance.




Appendix. Agency Comments
